V

J*

No. 2o

- if<S

3fa®& e
Supreme Court of tfje Unite!) States:

Dale J. Richardson
Petitioner,
v.
Magistrate Judge Gorden P. Gallagher; and
United States District Court in the District of Colorado
Respondents.
On Writ of Certiorari to the United States Court of Appeals for the Ninth Circuit
PETITION FOR WRIT OF CERTIORARI
Dale J. Richardson (Pro Se) (iintty@dsrkarisconsulting.com)
3130 Oakland Street, Aurora, CO 80010
(306) 441-7010
June 23rd, 2021

PETITION FOR WRIT OF
CERTIORARI

i

In The
Supreme Court of the United-States
June 23rd, 2021

i

—:

QUESTIONS PRESENTED
1. Is it constitutional to leave a person in the custody of someone they alleged
torture against?
2. Is it constitutional to use a grievance policy to obstructed justice?
3. Is it constitutional to expect perfect compliance with the rules for a pro se

habeas corpus application who is being tortured and obstructed?
4. Is it constitutional to use the rules of the Court to justify torture?
5. If no exceptional circumstances be used to justify torture, can the rules of the
court be used to justify torture?
6. Is it constitutional to use the rules of the Court to obstruct justice?
7. Is it constitutional to detain a person under any law that is not criminal law?
8. Is it constitutional for a person or persons to be deprived of life, liberty, or

property by IMMIGRATION COURT when the same is not part of the UNITED
STATES judicial branch responsible for the due process oflaw?
9. Given the common law nature of the Privilege of Writ of Habeas Corpus, does
a corrupt court constitute a suspension of the Privilege of Writ ofHabeas
Corpus for person or persons held within its jurisdiction?
10. Is suspending the Privilege of Writ of Habeas Corpus for any reason and by
any means not permitted by the United States Constitution an act of treason
or the invariable pursuit of the Object?

i

SUSPENSION OF FREEDOM
The United States District Court in the District of Colorado (the “US
DISTRICT Court”) received evidence of federal treason and the invariable pursuit of
the OBJECT from the Petitioner with the petition for Writ ofHabeas Corpus
submitted on June 2 of 2021 and, to the knowledge of the Petitioner, has not taken
appropriate measures given the imperative public importance of such evidence, but
has suspended the application for Writ ofHabeas Corpus in violation of the United
States Constitution, 28 U.S.C. § 2243, 18 U.S.C. § 3771, and the United Nations
Convention against Torture and Other Cruel, Inhuman or Degrading Treatment or
Punishment (the “ United Nations Convention against Torture and Other Cruel,
Inhuman or Degrading Treatment or Punishmenf’) which requires a court to
“award the writ”.
The aforementioned evidence detailed the mismanagement of the Covid
emergency, as articulated by JESUIT affiliated CARLO MARIA VlGANO, Titular
Archbishop of Ulpiana, when he said that the mismanagement of the Covid
emergency was being used to build a world without freedom through the dissolution
of social order: Solve et Coagula as the MASONIC adage teaches. Ignoring the
imperative public importance of such evidence and the United States Constitution
which forbids the suspension of the Privilege of Writ ofHabeas Corpus, MAGISTRATE
Judge Gorden P. Gallagher of the US District Court, on May 26 of 2021,
ordered the application deficient on the basis of no case number being provided on
the application; the Petitioner has received no further orders from the US DISTRICT

u

Court as of June 20 of 2021. The US DISTRICT COURT has continued a “long train of
abuses and usurpations, pursuing invariably the same Object evinces a design to
reduce them under absolute Despotism” in the suspension of the Privilege of Writ of
Habeas Corpus.
HABEAS CORPUS GUARANTEES FREEDOM
The Privilege of Writ ofHabeas Corpus is guaranteed by the United States
Constitution for the prevention or speedy relief of a person or persons seized or
imprisoned without due process of law, which stands as the greatest bulwark
against the invariable pursuit of the OBJECT; for when habeas corpus is executed
and respected, it is impossible for Despotism to occur. In fact, the Declaration of
Independence necessitates the existence of habeas corpus, as it stands in as the
greatest defence mechanism for the preservation of liberty that dates back to the
the Magna Carta. The persecution of the Roman CATHOLIC CHURCH during the
PROTESTANT Reformation necessitated the development of a country that would
explicitly execute and respect habeas corpus, the UNITED STATES OF AMERICA, the
land of the free. Such privilege guarantees that “You shall have the body” and when
an Application for a Writ of Habeas Corpus is submitted to a court, justice, or judge
on your behalf, the same shall forthwith direct the Writ to any person who has
seized or imprisoned you, such person must bring or cause your body to be brought
before the same within three days, unless distance requires additional time, for an
investigation into the lawfulness of your seizure or imprisonment. The Privilege of
Writ ofHabeas Corpus is a CHRISTIAN right that guards the Life and Liberty of all

in

people inside and outside of the UNITED STATES OF AMERICA. Any person or persons
who attempts to suspend or worse abolish this CHRISTIAN right are ANTI-CHRISTIAN
and seek to abolish true CHRISTIANITY, and the country which upholds it, the
United States

of

America.
PARTIES

This petition stems from a Writ ofMandamus to the United States Court of
Appeals for the Tenth Circuit proceeding in which the Petitioner is the Petitioner
before the US COURT OF APPEALS. The Respondent MAGISTRATE JUDGE GORDEN P.
Gallagher is a magistrate judge of the following and THE UNITED STATES DISTRICT
Court IN THE District of Colorado is the court responsible for the suspension
along with its judge.
RELATED PROCEEDINGS
1. Richardson v. Attorney General of the United States et al, No. 1:21-CV01418-GPG, United States District Court for the District of Colorado.
Judgment entered May 26 of 2021.
2. Richardson v. Attorney General of the United States et al, No. 1:21-CV01618-GPG, United States District Court for the District of Colorado.
Judgment entered June 15 of 2021.
3. Kaysha Dery Richardson v. Attorney General of the United States, U.S.
Department ofHomeland Security, U.S. Citizenship and Immigration
Services, U.S. Immigration and Customs Enforcement, Scott Robinson, ZCH

IV

193, Nevada Southern Detention Center and Brian Koehn, No. 2:20-cv02218-JAD-DJA, .United States District Court for the District of Nevada.
Judgment entered January 27 of 2021 after three month suspension.
4. DSR Karis North Consulting Inc. v. State ofDelaware, No. Obstructed
Supreme Court of the United States. Judgment never entered after arbitrary
refusal by Case Analyst Clara Houghteling on December 15 of 2020.
5. Robert A. Cannon on behalf ofKaysha F.N. Dery v. Attorney General of the
United States, U.S. Department ofHomeland Security, U.S. Citizenship and
Immigration Services, U.S. Immigration and Customs Enforcement, Scott
Robinson, ZCH193, Nevada Southern Detention Center and Brian Koehn,
No. 21-15402, Supreme Court of the United States. Judgment never entered
after arbitrary refusal by Case Analyst Clara Houghteling on December 31 of
2020.

6. Kaysha Dery Richardson v. Attorney General of the United States, U.S.
Department ofHomeland Security, U.S. Citizenship and Immigration
Services, U.S. Immigration and Customs Enforcement, Scott Robinson, ZCH
193, Nevada Southern Detention Center and Brian Koehn, No. 21-15402,
United States Court of Appeals for the Ninth Circuit. Judgment never
entered and currently suspended.
7. Kaysha F.N. Dery v. Attorney General of the United States, U.S.
Department ofHomeland Security, U.S. Citizenship and Immigration

v

Services, U.S. Immigration and Customs Enforcement, Scott Robinson, ZCH
193, Nevada Southern Detention Center and Brian Koehn, No. 20-1282,
Supreme Court of the United States. Judgment never entered after denial by
the Court on April 19 of 2021.

vi

TABLE OF CONTENTS
QUESTIONS PRESENTED....

l

SUSPENSION OF FREEDOM

11

HABEAS CORPUS GUARANTEES FREEDOM

m

PARTIES

IV

RELATED PROCEEDINGS

TV

TABLE OF APPENDICES

IX

TABLE OF AUTHORITIES

x

PETITION FOR WRIT OF CERTIORARI AND REHEARING

1

OPINIONS BELOW

2

JURISDICTION

2

STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

3

A. Engineering Reimagined.......................................................

3

B. Criminal Negligence..............................................................

4

C. The July 23rd Terrorist Attacks..........................................

7

D. Habeas Corpus Ad Subjiciendum........................................

11

E. A Metis Plea for Safety and Asylum....................................

14

F. Another Habeas Corpus Ad Subjiciendum.........................

15

G. Extreme Prejudice.................................................................

18

H. Another Another Application for Writ of Habeas Corpus

22

I. Petition to Congress................................................................

24

J. More Extreme Prejudice........................................................

25
32

ARGUMENT

A. This Court Should Grant Certiorari to Affirm the Mismanagement of the
Covid Emergency to Dissolve the Social Order so as to Build a World Without

Vll

Freedom: Solve et Coagula, as the Masonic Adage Teaches, which is Articulated by
Jesuit Affiliated Carlo Maria Vigano.............................................................................. 32
B. This Court Should Grant Certiorari to Affirm that Agents of the United
States Government have Participated in the Persecution of the Christians,
Catholics, and the Indigenous Peoples for the Mismanagement of the Covid
Emergency........................................................................................................................... 33
34

CONCLUSION

...

Vlll

TABLE OF APPENDICES
VOLUME I
Appendix A
Judgment from the United States District Court District of Nevada

2a

Appendix B
116a

Application for Return of the Child
VOLUME II
Application for the Return of the Child (continued)

416a

Appendix C
Dale Richardson Asylum from Torture by Freemasons

543a

Appendix D
Ellen G. White Expose of the Freemasons

560a

Appendix E
602a

Supreme Court of Canada
Appendix F

735a

Federal Court of Canada
VOLUME m
Federal Court of Canada (continued)

831a

Appendix G
Court of Appeal for Saskatchewan Corruption,

868a

VOLUME IV
Court of Appeal for Saskatchewan Corruption (continued)

1246a

Appendix H
1299a

Federal Court of Canada
VOLUME V
Federal Court of Canada (continued)

1661a

VOLUME VI
Federal Court of Canada (continued)
IX

2470a-2864a

TABLE OF AUTHORITIES
Statutes
18 U.S.C. §3771

2,3

28 U.S.C. §1254

1, 2, 34

28 U.S.C. §2243

2

1, 2, 34

28 U.S.C. § 2101(e)

x

PETITION FOR WRIT OF CERTIORARI
Petitioner DALE J. RICHARDSON (the “Petitioned or “DALE”) respectfully
petition for a writ of certiorari to review the pending case for writ of mandamus in
the United States Court

of

Appeals for the Tenth Circuit (the “US Court

of

Appeals”) pursuant to Rule 11 of the Rules of this Court and 28 U.S.C. § 1254 and §
2101(e) given the “imperative public importance” of the evidence federal treason
and the invariable pursuit of the OBJECT, a conspiracy to restrict the liberty of the
Christians, Catholics, and Indigenous Peoples in the United States

of

America.
Christians, Catholics, and Indigenous Peoples have had their rights and
freedoms, specifically the Privilege of Writ ofHabeas Corpus, the free exercise of
Religion, and the unalienable rights to LIFE, LIBERTY, and pursuit of HAPPINESS,
taken by the MASONIC conspirators through the mismanagement of the Covid
emergency, as predicted by the JESUIT affiliated CARLO MARIA VlGANO, Titular
Archbishop of Ulpiana, when he alleged that such mismanagement has furthered
the dissolution of the social order so as to build a world without freedom: Solve et
Coagula, as the MASONIC adage teaches. The supposed presidential elect JOSEPH R.
BlDEN, has advocated further measures to be enforced in the name of the Covid
emergency and the US DISTRICT COURT has endorsed his claim by suppressing
evidence of its mismanagement and suspending the Privilege of Writ ofHabeas
Corpus.

1

OPINIONS BELOW
The opinion of the US DISTRICT COURT in Richardson v. Attorney General of
the United States et al, No. 1:21-CV-01418-GPG and 1:21-CV-01618-GPG, that the
application and motion which purports torture are deficient and cannot be filed
because a case number was not printed on them is Despotism and misidentifying
the motion under 18 U.S.C. § 3771 which criminal as 28 U.S.C. 1915 which is civil is
Despotism in the process denying the victims rights thereby circumventing the UN
Torture Convention; the US DISTRICT COURT failed to mention that the application
and motion included evidence of “imperative public importance” including torture,
terrorism, genocide, and apartheid as part of federal treason and the invariable
pursuit of the OBJECT.
JURISDICTION
This Court has jurisdiction for this PETITION FOR WRIT OF CERTIORARI
pursuant to 28 U.S.C. § 1254 and § 2101(e) “before or after rendition of judgment or
decree”. This application purports federal treason and the invariable pursuit of the
Object which is “imperative public importance as to justify deviation from normal
appellate practice and to require immediate determination in this Court”. This is
the only Court that has the jurisdiction, the authority, and the power to whistleblow the invariable pursuit of the OBJECT to the people of the UNITED STATES OF
America and the Indigenous Peoples.

2

STATUTORY PROVISIONS INVOLVED
18 U.S.C. §3771:
“...Motion for relief and writ of mandamus.—
The rights described in subsection (a) shall be asserted in the district court in
which a defendant is being prosecuted for the crime or, if no prosecution is
underway, in the district court in the district in which the crime occurred. The
district court shall take up and decide any motion asserting a victim’s right
forthwith. If the district court denies the relief sought, the movant may petition the
court of appeals for a writ of mandamus. The court of appeals may issue the writ on
the order of a single judge pursuant to circuit rule or the Federal Rules of Appellate
Procedure. The court of appeals shall take up and decide such application forthwith
within 72 hours after the petition has been filed, unless the litigants, with the
approval of the court, have stipulated to a different time period for consideration. In
deciding such application, the court of appeals shall apply ordinary standards of
appellate review. In no event shall proceedings be stayed or subject to a continuance
of more than five days for purposes of enforcing this chapter. If the court of appeals
denies the relief sought, the reasons for the denial shall be clearly stated on the
record in a written opinion...”
STATEMENT OF THE CASE
A.

Engineering Reimagined
Dale J. RICHARDSON (known as the Petitioner, hereinafter “DALE”) and his

daughter KAYSHA F.N. DERY (“KAYSHA”) sought opportunity to minister SEVENTH3

Day Adventist Church doctrine to the Battlefords and surrounding Indigenous
communities. On April 1 of 2020, Dale founded DSR KARIS CONSULTING INC. (“DSR
Karis”), a Canadian federal corporation pursuant to the Canada Business
Corporations Act which is a distinct natural person under subsection 15(1) of the
same, to further this ministry, specifically in the field of mechanical engineering.
DSR KARIS, named after his infant daughter KARIS K.N. RICHARDSON
(“KARIS”), sought to help local businesses with their Covid response by installing
safe Heating, Ventilating, and Air Conditioning systems that mitigate the spread of
contagions, an essential service, and build a future for his children; DALE would do
anything for his children. DSR KARIS was pursuing opportunities to help educate
Indigenous persons and women in the field of engineering and offered its essential
services at cost to all not-for-profits and houses of worship in the Battlefords and
surrounding areas in an effort to help faith communities open their doors again,
this is engineering reimagined. Unfortunately, due to a series of coordinated efforts
by unscrupulous persons, this ministry was hindered.
B.

Criminal Negligence
DSR Karis was hindered by the criminally negligent recommendations for

Covid response from the SASKATCHEWAN HEALTH AUTHORITY which motivated
businesses, already cash-strapped from the global shutdown, to hire unqualified
professionals to install Heating, Ventilating, and Air Conditioning systems to
mitigate the spread of contagions, such systems were not effective from an
engineering perspective and threatened the safety of the general public. After

4

repeated pleas to the SASKATCHEWAN HEALTH AUTHORITY to have a qualified
engineer review its recommendations, on July 7 of 2020, DSR KARIS notified
INNOVATION Credit Union about the criminal negligence requesting that it fulfill
its fiduciary duty to its members by notifying them of the same as it related to the
Non-Disclosure Agreement that exists between them. INNOVATION CREDIT UNION
responded by conspiring to limit DSR Karis’s access to INNOVATION CREDIT UNION
and its members by ROYAL CANADIAN MOUNTED POLICE intervention which was a
breach of the Non-Disclosure Agreement. In response to a complaint of uttering
threats made against DALE, he provided evidence to the contrary and on June 16 of
2020, the Royal Canadian Mounted Police attempted to return part of that
evidence without conducting a proper investigation. DSR KARIS made a complaint
and provided evidence to the ROYAL CANADIAN MOUNTED POLICE about the criminal
negligence under sections 219 and 220 of the Criminal Code of Canada which to its
knowledge was never investigated.
While DSR KARIS was pursuing the foregoing, its Chief Executive Officer,
Dale, was being persecuted by the SEVENTH-DAY ADVENTIST CHURCH in collusion
with his wife KIMBERLY A. RICHARDSON (“Kim”) for adhering to its doctrine and his
infant daughter KARIS was wrongfully removed and retained by his wife KlM on
June 1 of 2020 under threat of ROYAL CANADIAN MOUNTED POLICE intervention and
tortured as a person and third person under 269.1 of the Criminal Code of Canada.
The members responsible for such persecution advocate MASONIC dogma in the
church and have ties to the SASKATCHEWAN HEALTH AUTHORITY, even possessing

5

the influence to hire Dale’s daughter KAYSHA as a permanent employee and peace
officer at SASKATCHEWAN HOSPITAL where she was tortured under 269.1 of the
Criminal Code of Canada. KAYSHA made complaints to the CANADIAN UNION OF
Public Employees about workplace safety, having prior knowledge of the criminal
negligence being the Chief Communication Officer of DSR KARIS, and about
discrimination against those of INDIGENOUS and METIS descent in her workplace to
which she belongs as she identifies as EUROPEAN, CARIBBEAN, and METIS. Such
discrimination based on race by employees of SASKATCHEWAN HOSPITAL inflicts
severe mental pain and suffering on such minorities in their care and is torture
under 269.1 of the Criminal Code of Canada as all permanent employees of
SASKATCHEWAN Hospital are peace officers and officials under the same.
In the interest of the general public, DSR KARIS with its low socioeconomic
status, sought remedy by pro se legal representation against the SASKATCHEWAN
Health Authority for its criminal negligence under sections 219 and 220 of the
Criminal Code of Canada with INNOVATION CREDIT UNION and the ROYAL
CANADIAN Mounted Police as joint respondents for conspiracy and accessory after
the fact under sections 465(1) and 463 of the Criminal Code of Canada and with the
SEVENTH-DAY Adventist Church as a joint respondent for its members affiliation
with the Saskatchewan Health Authority and their relentless persecution of its
Chief Executive Officer, Dale, and Chief Communication Officer, KAYSHA, which
seemingly happened in response to inquiry into the SASKATCHEWAN HEALTH

6

Authority, Innovation Credit Union, and the Royal Canadian Mounted
Police.
DSR KARIS submitted a pro se originating application in the COURT OF
Queen’s Bench for Saskatchewan

in the

Judicial Centre

of

Battleford on

July 16 of 2020 which sought the following:
(i)

orders for an investigation into INNOVATION CREDIT UNION under
The Credit Union Act, 1998, a Saskatchewan statute, arising from
the infringement of the Non-Disclosure Agreement;

(ii) orders for the ROYAL CANADIAN MOUNTED POLICE to stop
preventing DSR KARIS from contacting CONSTABLE SEKELA, the
lead investigator for its complaint of criminal negligence; and
(iii) protective orders against the respondents as they had been
threatening the officers of DSR KARIS.
The in chambers date for such application was scheduled for July 23 of 2020.
C.

The July 23rd Terrorist Attacks
After many failed attempts by the SASKATCHEWAN HEALTH AUTHORITY and

ROYAL Canadian Mounted Police to intimate and coerce Kaysha and her father
DALE from attending the hearing on behalf of DSR KARIS under the guise of the
Covid emergency and self-isolation, KAYSHA and her father DALE decided in the
interest of the general public and CHRISTIANS and CATHOLICS everywhere to attend

7

the hearing on behalf of DSR KARIS to expose the mismanagement of the Covid
emergency in Saskatchewan.
On July 23rd of 2020 at approximately 10:00 AM CST, DALE, the power of
attorney for DSR KARIS, was detained under The Mental Health Services Act and
KAYSHA, the Chief Communication Officer for DSR KARIS, was detained under The
Public Health Act, 1994 while acting on behalf of DSR KARIS. Dale and KAYSHA
were both detained at the same time and place by six ROYAL CANADIAN MOUNTED
POLICE officers and the COURT DEPUTY SHERIFF for different reasons with no
declared warrant in front of the COURT OF QUEEN’S BENCH FOR SASKATCHEWAN IN
THE JUDICIAL Centre

of

BATTLEFORD minutes before they were to attend a hearing

for DSR KARIS to expose the mismanagement of the Covid emergency in
SASKATCHEWAN. As predicted by CONSTABLE Read during the unlawful arrest,
Justice R.W. ELSON adjourned the hearing; it was adjourned sine die, meaning it
could not be reopened without the consent of the respondents.
While DSR KARIS was pursuing the foregoing litigation, Dale’s wife filed for
divorce under the legal counsel of PATRICIA J. MEIKLEJOHN of MATRIX Law GROUP
LLP, the partner of CLIFFORD A. HOLM who was one of the influential persons
advocating MASONIC dogma in the BATTLEFORDS Seventh-Day ADVENTIST CHURCH.
The in chambers date for such divorce petition was scheduled for July 23 of 2020 on
the same docket seemingly as punishment for pursing litigation on behalf of DSR
KARIS against the Seventh-Day ADVENTIST CHURCH, the SASKATCHEWAN HEALTH

Authority, Innovation Credit Union, and the Royal Canadian Mounted

8

POLICE for the mismanagement of the Covid emergency in SASKATCHEWAN. JUSTICE
R.W. ELSON also presided over Dale’s divorce case and on July 22 of 2020 requested
that his wife KlM draft an interim order for the hearing the following day; JUSTICE
R.W. ELSON granted this interim order on July 23 of 2020 while DALE was absent,
as he was detained for mental health, which gave his wife KlM possession of their
house and DSR KARIS’s corporate records and registered office and gave her custody
of KARIS. Later that day, KlM with her family and in the presence of the ROYAL
Canadian Mounted Police came and took possession of DSR KARIS’s property
except for its corporate phone from its only remaining agent through intimation and
coercion by armed ROYAL CANADIAN MOUNTED POLICE officers.
When the JUSTICE R.W. ELSON discovered DSR KARIS’s articles of
incorporation, specifically the share transfer restrictions clause, he realized their
egregious failure. The shares could only be transferred upon consent through
resolution by the sole director of DSR KARIS, DALE, and declaring him mentally
insane was of no consequence, the shares could not be transferred to KlM. DSR
KARIS offers essential services and interfering with or causing a severe disruption to
an essential service is terrorist activity under subsection 83.01(l)(b)(ii)(E) of the
Criminal Code of Canada and every person who knowingly participates in carrying
out terrorist activity is guilty under 83.18(1) of the same. Since July 23 of 2020,
DSR KARIS has been unable to conduct its essential services, and the MASONIC
conspirators have sought to cover up their crime.

9

Dale and KAYSHA were both tortured by peace officers and officials under
section 269.1 of the Criminal Code of Canada and the United Nations Convention
against Torture and Other Cruel, Inhuman or Degrading Treatment or Punishment
binding in CANADA during their arbitrary, unconstitutional, and unlawful
detainment. DALE was taken to BATTLEFORDS MENTAL HEALTH CENTRE and was
strapped to a bed by ROYAL CANADIAN MOUNTED POLICE while SASKATCHEWAN
HEALTH Authority officials drugged him against his will. DALE was administered
drugs against his will whenever he asked for the warrant for his detainment which
was finally given to him after a few days of detainment. DALE was officially
admitted to Battlefords Mental Health Centre on July 24 of 2020 for
“paranoid religious, persecutory and grandiose delusions” after he was drugged on
July 23 of 2020 and it was determined by biased medical professionals that he must
be tied to a bed and drugged to cure him. CONSTABLE BURTON said “cause it’s a little
different—Saskatchewan health care compared to Manitoba” and that he had been
there for about 7 years in response to Dale’s mother AGATHA RICHARDSON saying
“You should see his feet, I mean we don’t restrain people like that”. After being
interrogated at BATTLEFORDS UNION HOSPITAL for hours, KAYSHA was taken by
Royal Canadian Mounted Police to Saskatchewan Hospital, where she was
also employed as a peace officer and had active complaints against through
CANADIAN Union OF Public Employees regarding discrimination and occupational
health and safety issues with its Heating, Ventilating, and Air Conditioning
systems. KAYSHA was detained while her union meeting was outstanding and she

10

has never had the opportunity to meet with the union since, but is still a permanent
employee and peace officer at SASKATCHEWAN HOSPITAL. Dale and KAYSHA were
only released from detainment after an Application for a Writ ofHabeas Corpus Ad
Subjiciendum was filed for them.

D.

Habeas Corpus Ad Subjiciendum
ROBERT A. Cannon (“Robert”) made repeated attempts to file an Application

for a Writ ofHabeas Corpus Ad Subjiciendum for Dale and KAYSHA against the
Saskatchewan Health Authority and Royal Canadian Mounted Police, first
ex parte and after with notice with overwhelming evidence of their arbitrary,
unconstitutional, and unlawful detainment which included video, audio, and
documentary evidence; the application was submitted to a different judicial centre
than Battleford, the Court
Judicial Centre

of

of

Queen’s Bench for Saskatchewan in the

Saskatoon in accordance with its court rules as it was closest

to Robert’s residential address. Robert’s third amendment to the Application for a
Writ ofHabeas Corpus Ad Subjiciendum was served to the SASKATCHEWAN HEALTH
Authority, but the Royal Canadian Mounted Police refused service for such
application and stated that Robert’s evidence would not be added to the ongoing
criminal negligence investigation unless he was a witness, in which case he would
have to attend the BATTLEFORDS ROYAL CANADIAN MOUNTED POLICE detachment,
the Royal Canadian Mounted Police detachment responsible for Dale’s and
KAYSHA’s detainment. At the time, ROBERT did not feel comfortable leaving the
jurisdiction of the SASKATOON POLICE SERVICE where the ROYAL CANADIAN

11

Mounted Police have no jurisdiction. KAYSHA was released before the third
amendment and DALE was released shortly after the third amendment was served
to the Saskatchewan Health Authority which is responsible for Saskatchewan
Hospital, Battlefords Union Hospital, and Battlefords Mental Health
Centre.
Robert with Dale and KAYSHA proceeded to attend the hearing for the
foregoing application supposedly scheduled for Aug 18 of 2020 to request that an
investigation be conducted into their arbitrary, unconstitutional, and unlawful
detainment. They were denied entry to the hearing as the registrar claimed that the
such application did not exist, after such was disproven then claimed that it was
never served, and after such was disproven then claimed that it was unfiled despite
proof of the dependent notice of expedited procedure being filed. After these
incoherent discussions with the registrar, ROBERT, DALE, and KAYSHA proceeded to
flee the jurisdiction of SASKATCHEWAN without delay.
ROBERT later filed by mail the fourth and fifth amendments to the
Application for a Writ ofHabeas Corpus Ad Subjiciendum which added Dale’s
infant daughter KARIS and his affiliate CHRISTY DAWN PENBRUM (“CHRISTY”), who
was punished for associating with him during his detainment, to those applied for,
additional respondents, and orders similar to those in the application by DSR KARIS
for July 23 of 2020 for an investigation into INNOVATION CREDIT UNION that were
judicially interfered with. JUSTICE N.D. CROOKS presided over this application on
September 10 of 2020 and dismissed the matter in the first hearing on fake

12

technicalities and without hearing the evidence in court, despite purporting that
she reviewed the evidence in her official capacity, JUSTICE N.D. CROOKS ordered
ROBERT to pay costs which is expected in an Application for a Writ ofHabeas
Corpus Ad Subjiciendum if it is determined by the justice to be frivolous and
vexatious. On September 22 of 2020, ROBERT filed an appeal to JUSTICE N.D.
Crooks’s decision in the COURT OF APPEAL FOR SASKATCHEWAN. Given the
corruption demonstrated in the COURT OF Queen’s BENCH FOR SASKATCHEWAN, the
Royal Canadian Mounted Police which is the national police force, and the
Seventh-Day Adventist Church which is a centrally governed international
church, KAYSHA did not feel safe in CANADA anymore and decided to seek refuge in
her ancestral homeland in the STATE OF MONTANA on October 1 of 2020.
On October 5 of 2020, JUSTICE J.A. SCHWANN of the COURT OF APPEAL FOR
SASKATCHEWAN ruled that Robert’s lawful application for dispensing with service
which was intentionally misinterpreted as ex parte would not be permitted despite
the overwhelming evidence of corruption and she ordered that ROBERT would need
to serve the respondents appeal books to proceed with the hearing which would take
multiple months; such order constitutes a suspension of Writ ofHabeas Corpus
which is permissible in CANADA as the Canadian Charter ofRights and Freedoms
permits human rights violations if they are to such reasonable limits prescribed by
law as can be demonstrably justified in a free and democratic society.

13

E.

A Mdtis Plea for Safety and Asylum
On October 1 of 2020, ROBERT accompanied KAYSHA as she fled to the U.S

CANADA BORDER at the SWEET GRASS port of entry seeking refuge under the Jay
Treaty and asylum in the UNITED STATES from the persecution and torture she was
subjected to in CANADA. KAYSHA brought her Canadian passport, Metis citizenship
card, marriage certificate, many other forms of identification, and over a thousand
pages of documentation with her to the border as part of her plea. After KAYSHA
was refused entry to the UNITED STATES on the basis of being METIS, she
subsequently filed an approximately 1214-page asylum application with over 5
gigabytes of media and video footage of the events discussed in the previous
sections.
Upon being provided the foregoing information and KAYSHA’s claim for
asylum, the officials of the UNITED STATES at the border isolated KAYSHA by
escorting ROBERT off of the premises and began threatening KAYSHA with being
taken into custody for applying for asylum and attempted to coerce her into
returning to CANADA without filing the same. KAYSHA, fearing for her life, did not
yield to their threats or coercion and filed for asylum and was subsequently taken
into custody under the guise of unsuitable travel documentation and placed in an
expedited removal. KAYSHA was first held in custody at the U.S.-Canada border in
the State OF Montana, then transferred to the JEFFERSON County Jail in the
STATE OF IDAHO, then finally transferred to NEVADA SOUTHERN DETENTION CENTER

14

in the STATE OF NEVADA and was held in custody in the STATE OF UTAH during such
transfer.
The asylum officer, SCOTT ROBINSON, ZCH 193, from the CHICAGO ASYLUM
OFFICE in the STATE OF ILLINOIS, conducted KAYSHA’s credible fear ofpersecution
interview and made his decision on October 15 of 2020 alleging that she was
credible, but did not believe that she had credible fear of being persecuted by her
centrally governed international church, the corrupt courts, or the corrupt national
police force again in CANADA despite her having filed for asylum from them, that
her infant sister is still detained by their authority, and evidence that those of
Metis descent are persecuted in CANADA. KAYSHA was not given her prompt review
of determination by an immigration judge within seven (7) days which is required
by the Immigration and Nationality Act and was not given such review of
determination until after an Ex Parte Petition for a Writ ofHabeas Corpus was
submitted on her behalf and filed on December 8 of 2020.
F.

Another Habeas Corpus Ad Subjiciendum
On November 27 of 2020, ROBERT submitted by mail from CANADA an Ex

Parte Petition for a Writ ofHabeas Corpus on behalf of KAYSHA to the US DISTRICT
COURT at 333 Las Vegas Blvd. South Las Vegas, NV 89101; such mail was
suspended by CANADA POST, the primary postal operator in CANADA, under the
guise of the Covid emergency and was not received until December 7 of 2020 at
11:38 AM MST; that very day in the afternoon, KAYSHA received word that she had
been given an immigration hearing date that December 10 of 2020 and that she

15

would likely be deported. The petition was filed the day after it was received on
December 8 of 2020 as a civil case with the case number of
2:20-cv-02218-JAD-DJA and was misinterpreted as pro se legal representation by
KAYSHA instead of ROBERT and was suspended under the guise of the following:
“Due to this court's extremely heavy case load this review process may take several
weeks”.
On December 10 of 2020 and fifty-six (56) days after KAYSHA’s credible fear of
persecution interview, KAYSHA’s review of determination was conducted by the
Judge Lindsay Robert which sought to uphold Scott Robinson, ZCH 193’s
credible fear findings and deport KAYSHA without reviewing the evidence, however,
KAYSHA’s lawyer LAWRENCE J. LlTMAN (“Jay”) argued that KAYSHA needed a
continuance for the evidence to be reviewed and JUDGE LINDSAY ROBERT reluctantly
granted such continuance and subsequently referred the case to JUDGE GLEN
BAKER, a judge with a better reputation. The following Tuesday on December 15 of
2020, JAY presented much of the information and evidence provided in this
application to JUDGE GLEN BAKER articulating the terrorist activity and KAYSHA
testified of the facts that pertained to her. JUDGE Glen Baker was reluctant to give
his decision in the court room and purported that he would review all the evidence
in his official capacity and make his final decision at a later time.
KAYSHA’s deportation was finalized on December 17 of 2020 a week after her
first immigration hearing, when JUDGE GLEN BAKER concluded that (1) she had not
been physically harmed during her arrest and thereby had not been tortured and

16

did not qualify under the United Nations Convention against Torture and Other
Cruel, Inhuman or Degrading Treatment or Punishment, and (2) she did not qualify
under any of the five bases enumerated in section 101(a)(42) of the Immigration
and Nationality Act which are race, religion, nationality, membership in a
particular social group, or pohtical opinion.
Given the information and evidence provided in this application, much of
which was provided to JUDGE GLEN BAKER, his conclusions appear unfounded as
the evidence provided delineated the apartheid system which is CANADA, the
resulting genocide of those in KAYSHA’s racial groups METIS and BLACK-CANADIANS,
Canadian justices exercising extreme prejudice, and how KAYSHA was primarily
psychologically tortured but also physically tortured in such system as she was
taken to a maximum security prison for the criminally insane without cause by the
national police force, the ROYAL CANADIAN MOUNTED POLICE, and held there in
isolation for eight days as punishment for seeking remedy in court on behalf of a
federal corporation. JUDGE GLEN Baker’s primary argument for deporting KAYSHA
was that she could seek remedy for unlawful arrest in CANADA. JAY advised
KAYSHA’s father DALE that her deportation would cause the Ex Parte Petition for
Writ ofHabeas Corpus to be moot. The petition was fourteen hundred eighty two
(1482) pages spread over seven (7) volumes, each of which was titled: “Book of
Torture”. While KAYSHA was seeking asylum in the UNITED STATES, KAYSHA’s
father Dale remained in CANADA to continue the htigation on behalf of DSR KARIS

17

and the legal battle for custody of his infant daughter KARIS who was kidnapped by
his wife KlM which was later endorsed by the courts with extreme prejudice.
G.

Extreme Prejudice
KAYSHA’s father DALE was released from BATTLEFORDS MENTAL HEALTH

CENTRE on August 7 of 2020 fifteen (15) days after being abducted. The draft order
granting custody of his infant daughter KARIS to his wife KlM was issued on July 23
of 2020 which meant that he had to appeal such draft order by August 22 of 2020
unless granted a motion to extend pursuant to the rules of the COURT OF APPEAL
FOR SASKATCHEWAN. When Dale was released he was still suffering side-effects of
the drugs administered to him against his will in BATTLEFORDS MENTAL HEALTH
Centre.
On September 18 of 2020, DALE on behalf of DSR KARIS submitted a
Statement of Claim and Motion under case number T-1115-20 to the FEDERAL
COURT OF Canada which purported with evidence that the COURT OF Queen’s
Bench for Saskatchewan, the Royal Canadian Mounted Police, the
Saskatchewan Health Authority and others committed various crimes as part of
terrorist activity, that DSR KARIS needed protection and remedy for such, and that
the Chief Communication Officer fled to the UNITED STATES to file asylum after
being tortured by the same. The hearing for the motion to permit DALE to represent
DSR KARIS under Rule 120 of the court and grant interim relief was dismissed and
struck without leave to amend on October 5 of 2020 by JUSTICE ROBERT L. BARNES

18

despite the foregoing evidence demonstrating that this case was a special
circumstance to permit DALE to represent under Rule 120.
On October 7 of 2020, DALE submitted a motion to extend and draft notice of
appeal to the COURT OF APPEAL FOR SASKATCHEWAN under case number CACV3717
for the draft order granted by JUSTICE R.W. ELSON on the basis that DALE was
detained and recovering from drugs administered to him against his will during the
appeal period and KARIS was not given fair representation. JUSTICE J.A. CALDWELL
presided over such motion on October 28 of 2020, and concluded with extreme
prejudice that granting the motion to give KARIS fair representation in an appeal
was prejudice to KlM despite Dale’s extraordinary circumstances and the infant
KARIS being taken away from her father, her primary caregiver, without fair
representation.
On November 13 of 2020 and following KAYSHA’s arbitrary, unconstitutional,
and unlawful detainment in the UNITED STATES in violation of international
instruments binding in the same, DALE on behalf of DSR KARIS filed a Statement of
Claim under the case number T-1403-20 in the FEDERAL COURT OF CANADA with
motion to allow him to represent under Rule 120 of the court against the MASONIC
Grand Lodge
Court

of

of

Saskatchewan, the Seventh-Day Adventist Church, the

Queen’s Bench

for

Saskatchewan, the Provincial Court of

Saskatchewan, and the Attorney General of the United States and his agents
which delineated a conspiracy by MASONS and those who believe or support those
who believe MASONIC dogma to cover up the mismanagement of the Covid

19

emergency; the court refused to accept the affidavit of service which is proof of
service and thereby declared the application to be abandoned on December 8 of 2020
under the guise that it lacked proof of service.
On November 26 of 2020, DALE attended a hearing to revisit custody of KARIS
in which JUSTICE J. ZUK presided in the COURT OF QUEEN’S BENCH FOR
Saskatchewan in the Judicial Centre

of

Battleford. Justice J. Zuk exercised

extreme prejudice and was hostile towards DALE seemingly as punishment for
seeking remedy against the court. JUSTICE J. ZUK accepted an affidavit by Kim
which was demonstrated to be perjured by DALE as the sole evidence upon which to
uphold JUSTICE R.W. ELSON orders despite much evidence that demonstrated that
KARIS should be in Dale’s care. JUSTICE J. ZUK attempted to construe DALE as
mentally ill and refused to accept new evidence to the contrary which he was
permitted to do. After suspending his decision, JUSTICE J. ZUK finally concluded
that KARIS should be in Kim’s care on December 11 of 2020.
On November 17 of 2020, ROBERT served to the ATTORNEY GENERALS of the
PROVINCES and Canada constitutional questions and on November 19 of 2020
included such questions in the perfecting of his habeas corpus appeal in the COURT
OF Appeal FOR Saskatchewan under the case number CACV3708, questioning the
constitutionality of allowing forced medical and psychiatric treatment in The
Mental Health Services Act and The Public Health Act, 1994, and torturing
corporations and using corporations to shield officials from responsibility for acts of
torture.

20

On the November 20 of 2020 and December 1 of 2020, DALE included
constitutional questions under the case number T-1229-20 and T-1367-20 in the
Federal Court OF Canada, respectively, which included the same questions from
Robert’s case above, in addition to questioning the constitutionality of requiring a
lawyer to represent under the FEDERAL COURT RULES and using rules to hinder
evidence of torture from entering court and violate the fundamental principles of
justice.
On November 22 of 2020, DALE was disfellowshiped by the Seventh-Day
Adventist Church without proper notice and in the disfellowship meeting
CLIFFORD A. Holm purported that Dale had defamed him.
On December 13 of 2020, DALE submitted an appeal under case number
CACV3745 to the final orders of JUSTICE J. ZUK denying DALE custody of his
daughter KARIS and on December 25 of 2020, the constitutional questions above
were submitted to COURT OF APPEAL FOR Saskatchewan under case number
CACV3745 in addition to questioning the lack of correction and control mechanisms
under Royal Canadian Mounted Police Act, lack of statutory provisions for
preventing torture of children in the Divorce Act and The Children’s Law Act, and
the constitutionality of the ASSOCIATION OF PROFESSIONAL ENGINEERS AND
Geoscientists

of

Saskatchewan being a corporation which shields officials from

responsibility for committing acts of torture, criminal negligence, and participating
in terrorist activity.

21

On February 2 of 2021 the REGISTRAR Amy GROOTHUIS of the COURT OF
Appeal FOR Saskatchewan conspired to remove the constitutional questions from
the Court of Appeal for Saskatchewan by refusing to allow Dale to perfect his
appeal unless he agreed to remove the constitutional questions in contravention to
Court ofAppeal Rules and the The Constitutional Questions Act, 2012 and evidence
of torture in contravention to the United Nations Convention against Torture and
Other Cruel, Inhuman or Degrading Treatment or Punishment.
H.

Another Another Application for Writ of Habeas Corpus
After sunset on Thursday December 24 of 2020, ROBERT submitted an Ex

Parte & Pro Se Original Application for Writ ofHabeas Corpus on behalf of KAYSHA
to the Supreme Court

of the

United States and personal delivery thereof was

effected on Monday December 28 of 2020; the same was a successive original
application and such application purported the suspension of the first application
for writ of habeas corpus by the US DISTRICT COURT due to its “extremely heavy
case load”. The first application was misinterpreted as pro se legal representation
by KAYSHA instead of ROBERT which also constituted suspension. The successive
application made it explicitly clear that ROBERT was the applicant. There is no law
of any kind that forbids successive applications for writ of habeas corpus by the
same or other applicants for KAYSHA as she has never been sentenced by any court
for any crime anywhere in the world.
ROBERT was unable to get in contact with the case analyst responsible for his
name in the alphabet, CLARA HOUGHTELING, as she has yet to reciprocate contact by

22

phone as of May 10 of 2021. ROBERT was able to contact case analyst SUSAN of the
Supreme Court of the United States on January 6 of 2021 and received a letter
from CLARA HOUGHTELING allegedly sent on December 31 of 2020 in which she
refused to accept the original application for writ of habeas corpus under the guise
of the following: (1) the original application for writ of habeas corpus was
interpreted as an extraordinary writ instead of original jurisdiction under 28 U.S.C.
§ 2241 and § 2242, (2) the application was not formatted as an extraordinary writ,
(3) the application would need a motion for forma pauperis despite the $300 filing
fee being provided as a cheque, (4) only an attorney can file habeas corpus for a
detainee which contravenes the foregoing codes, and (5) the ex parte application
must be served on the Respondents-, these egregious lies in contravention to the
fundamental principles ofjustice and all forms of law and subsequent return of
documents and cheque by the court clerk constitute suspension and an attempt to
keep evidence of treason and terrorism out of court.
Such refusal and subsequent return of documents by CLARA HOUGHTELING
purported by SUSAN constitute suspension by the SUPREME COURT OF THE UNITED
States as Clara HOUGHTELING is the only case analyst Robert can apply through
as she was responsible for his name in the alphabet in accordance with the
procedure of such Court according to SUSAN. When ROBERT purported to SUSAN that
CLARA HOUGHTELING broke the law, she replied: “its our rules”. In so doing, the
Clerk exercised judicial authority to suspend the CHRISTIAN right of Privilege of
Writ ofHabeas Corpus which is beyond the scope of its office in an effort to cover up

23

the mismanagement of the Covid emergency to build a world without freedom, a
world without CHRISTIANITY.
I.

Petition to Congress
On Monday January 4 of 2021, ROBERT, a UNITED STATES citizen living

abroad in CANADA, attempted to exercise his first amendment right to petition
congress for a redress of grievance and delivery thereof to the visitor entrance of the
Cannon building of the UNITED STATES HOUSE OF REPRESENTATIVES guarded by
Officer Parker and Officer Lee of the United States Capital Police. Robert
was instructed by OFFICER PARKER that due to Covid only employees would have
access to any of the government buildings in the capital and that ROBERT would be
be required to contact his representative in the UNITED STATES HOUSE OF
REPRESENTATIVES; Robert explained that he was a nonresident hving abroad that
did not have a representative in CONGRESS and that the only way for him to petition
congress was by delivering it to the UNITED STATES HOUSE OF REPRESENTATIVES
directly, the METIS face the same barrier to petition.
OFFICER Parker ignored Robert and instructed him to google a phone
number and call someone and that he should do so outside. ROBERT purported that
he was simply there to exercise his first amendment rights to petition and needed to
effect delivery directly; OFFICER PARKER began threatening ROBERT with the
statement “Do you want to be arrested?” to which the answer was “No”. When
Robert asked under what grounds could a person be arrested for when trying to
exercise their first amendment rights to petition, OFFICER Lee responded with “Our

24

rules”, a seemingly common trend. At no point did either OFFICER PARKER or
OFFICER lee provide any viable means for Robert to exercise his first amendment
rights as a citizen living abroad. Eventually, OFFICER Lee turned to OFFICER
Parker and said I’m just going to do it, I’m going to arrest him. OFFICER Lee
approached ROBERT and said put your hands behind your back to which ROBERT
replied “Why?” having never been told that he was going to be arrested. OFFICER
LEE replied because it was resisting arrest, an arrest which was never purported by
anyone at any point to the knowledge of ROBERT.
ROBERT being detained in this manner and not given trial constitutes
arbitrarily detention to prevent him from petitioning CONGRESS in person before
Wednesday, January 6 of 2021. ROBERT was arbitrarily detained and denied access
to a Bible under the colour of authority of the UNITED STATES attempting to exercise
the constitutional right to petition for redress of grievance to CONGRESS with
respect to and citing the Ex Parte & Pro Se Original Application for Writ ofHabeas
Corpus which was arbitrarily rejected by CLARA HOUGHTELING of the SUPREME
COURT OF THE United States. Dale mailed a petition for Congress on January 13
of 2021. DALE later petitioned the Parliament of CANADA for the same.
J.

More Extreme Prejudice
After failing to unlawfully deport KAYSHA which is a METIS card holding

citizen, JUDGE JENNIFER A. DORSEY of the US District Court proceeded to hear
the petition for a writ of habeas corpus on January 27 of 2021 and dismissed it.
JUDGE Jennifer A. Dorsey recognized that “Richardson alleges that the petition

25

arises under the United States Constitution, the Immigration and Nationality Act
(“INA”), the United Nations Convention Against Torture, and the United Nations
Refugee Convention. She claims that her detention is arbitrary, unlawful, and
violates the Fourth, Fifth, and Eighth Amendments. In the prayer for relief,
Richardson asks the court to assume jurisdiction over this matter, order
respondents to release her on her own recognizance, and grant any other relief
deemed proper”; however, the judge ignored her claim under the United Nations
Declaration on the Rights ofIndigenous Peoples as a METIS card holding citizen and
her claim that she was not given her immigration hearing within seven days
pursuant to 235(b)(l)(B)(iii)(III) of the Immigration and Nationality Act which both
qualify KAYSHA for immediate release.
JUDGE Jennifer A. Dorsey also ignored purports of United Nations
Convention against Torture and Other Cruel, Inhuman or Degrading Treatment or
Punishment violations relating to the credible fear of persecution interview process
not being a competent authority and thereby acquiesced. JUDGE JENNIFER A.
Dorsey claimed that KAYSHA was challenging the order of removal which is at no
point was purported; KAYSHA received her final order for deportation on December
17 of 2020 which is reasonably demonstrable as a result of the petition for a writ of
habeas corpus. JUDGE JENNIFER A. DORSEY “took judicial notice of the status of the
proceedings in Richardson’s immigration case before the Las Vegas Immigration
Court”, a status that did not exist at the time of filing. JUDGE JENNIFER A. DORSEY
proceeded to order KAYSHA to “sign and submit any future documents personally”

26

claiming that ROBERT was involved in the “unauthorized practice of law” for filing
for an application for a writ of habeas corpus on behalf of KAYSHA.
On January 26 of 2021, ROBERT received notice of an upcoming hearing for
the appeal to the first habeas corpus in CANADA suspended by JUSTICE J.A.
SCHWANN and submitted four months prior on September 23 of 2020; the appeal
was to be heard on March 1 of 2021 and ROBERT would be given four hours to
present the case. On January 29 of 2021, ROBERT attempted to file an Ex Parte
Motion for Leave to Appeal to the Supreme Court for Writ of Habeas Corpus which
purported the prejudice demonstrated by JUSTICE J.A. SCHWANN and JUSTICE J.A.
Caldwell of the Court of Appeal for Saskatchewan and requested the habeas
corpus to be referred to the SUPREME COURT OF CANADA; otherwise, the COURT OF
Appeal for Saskatchewan would have to decide whether to put Justice J.A.
Schwann and Justice J.A. Caldwell in prison. Such motion was denied by
JUSTICE Ralph K. OTTENBREIT purporting that he did not have the authority to file
it. Under the instruction of JUSTICE RALPH K. OTTENBREIT, ROBERT served and filed
a Motion to Adduce Fresh Evidence fora Writ ofHabeas Corpus which included
such request to refer the case to a higher authority and included evidence of the
involvement the rogue agents of INNOVATION CREDIT UNION in the July 23rd
Terrorist Attacks such agents stood the most to gain from the fraudulent orders of

Justice R.W. Elson.
On February 24 of 2021, JUSTICE J.D. KALMAKOFF of the COURT OF APPEAL
FOR SASKATCHEWAN presided over writ of mandamus and prohibition in chambers;

27

during such hearing, he presumed to shield opposing counsel from questions as to
where the sudden windfall came to pay for the previously infeasible legal fees on
appeal purporting that such had no relevance. DALE learned on March 14 of 2021
that Kim came into money from mortgage fraud which included rogue elements of
Innovation Credit Union by the fraudulent sale of his house without his
knowledge or consent and the unlawful transfer of the title. JUSTICE J.D.
KALMAKOFF then proceeded to participate in the unauthorized practice oflaw when
he assumed the role of opposing council to strike down the writ which was to force
the officials of the COURT OF QUEEN’S BENCH FOR SASKATCHEWAN to follow their
own laws and rules to accept evidence of torture and judicial interference to allow
due process of law in his appeal for the right of custody.
JUSTICE J.D. Kalmakoff was unable to declare Dale mentally ill in
chambers due to the overwhelming evidence to the contrary and was forced to
simply construe him as such in his subsequent brief of law disguised as court orders
which purported that DALE being strapped to a bed and drugged against his will
and the abduction of his children was not torture. JUSTICE J.D. KALMAKOFF refused
to make a decision based on the facts and legal arguments presented in the hearing;
in the absence of PATRICIA J. MEIKLEJOHN making any legal arguments or
presenting any evidence, JUSTICE J.D. KALMAKOFF went and created legal
arguments for her and disregarded compelling evidence to the contrary in order to
commit purgery in his brief of law to shield INNOVATION CREDIT UNION, the COURT
of

Queen’s Bench for Saskatchewan, the mortgage fraud involving both as the

28

court would possess the funds pursuant to the final orders of JUSTICE R.W. ELSON
disguised an interim orders. JUSTICE J.D. KALMAKOFF was caught exercising
extreme prejudice and misrepresenting the law in an attempt to avoid the
responsibility of his position and his responsibilities under the United Nations
Convention against Torture and Other Cruel, Inhuman or Degrading Treatment or
Punishment.
On March 1 of 2021, ROBERT was ambushed by a panel of judges of the
Court

of Appeal for

Saskatchewan, specifically Justice Jacelyn Ryan-

Froslie, Justice Georgina Jackson, and Justice B.A. Barrington-Foote (the
“Panel’) as he was not notified that DALE would be speaking in the hearing. The
Panel attempted to exceed their jurisdiction purporting that they would decide on
whether the constitutional questions pertaining to forced medical treatment would
be permitted in the court room which the law does not permit. After witnessing the
respondents request the court to punish ROBERT on their word alone in order to
torture DALE, Karis, and KAYSHA, the Panel decided to suspend their decision
which tortured them anyway even after MICHAEL B. GRIFFIN was caught
implicating all of the respondents in purgery and conspiracy to commit torture and
terrorism when he claimed that DALE and DSR KARIS were Robert’s clients and
that Robert should be held financially responsible for their actions, both of which
were lies. Almost all of the counsel which incriminated themselves in the March 1 of
2021 hearing with Robert, specifically not denying torturing DALE or being a
conspirator to terrorist activity, were the counsel in the case management on March

29

23 of 2021 which undermines the integrity of the entire judicial system and violates
the distinct natural person as DSR KARIS was never notified or allowed to defend
itself from the remedy of case management which caused it irreparable harm and
caused a server disruption of an essential service in CANADA and hindered the
development of critical infrastructure in the UNITED STATES crippling its AMERICAN
associate, DSR KARIS NORTH and further enabling the invariable pursuit of the

Object.
One of the main perpetrators of the mortgage fraud, VIRGIL A. THOMSON of
OWZW LLP, was not present and the only intervenor for the constitutional
questions, LYNN CONNELLY representing the ATTORNEY GENERAL OF
SASKATCHEWAN, was not present—leaving the factums requesting the questions be
struck down defenceless.
On February 28 of 2021, KAYSHA submitted from federal prison to the US
Court

of

Appeals and the Supreme Court

of the

United States applications

relating to habeas corpus and the whistling-blowing the invariable pursuit of the
OBJECT perpetuated by the PROVINCE to

the

North, a country known for torturing

its citizens abroad, CANADA.
On March 26 of 2021, JUSTICE J.A. SCHWANN of the COURT OF APPEAL FOR
SASKATCHEWAN dismissed a motion made by DALE on behalf of DSR KARIS for stay
of execution on a prerogative writ which included evidence of mortgage fraud and
the transfer and requested that the transfer be halted and title be held by the DSR
KARIS until the same was investigated. JUSTICE J.A. SCHWANN lied about the
30

evidence purporting that she did not see the rental contract in the materials
provided to her and that the unlawful varying of JUSTICE R.W. ELSON by JUSTICE
B.R. HlLDEBRANDT without the consent of the both parties exceeded the jurisdiction
of the Court

of

Queen’s Bench

for

Saskatchewan and usurped the authority of

Court of Appeal for Saskatchewan and due process process of law. Justice J.A.
SCHWANNhad clear evidence of mortgage fraud with documents from the opposition
which purported that CLIFFORD A. HOLM was the representing lawyer for DALE in
the transfer despite the fact that DALE was suing him and obvious fraudulent
activity which KlM signing for DALE and her name being listed as buyer in the
documents submitted to JUSTICE B.R. HlLDEBRANDT.
On April 1 of 2021, Dale was denied a review of JUSTICE J.D. Kalmakoff
orders by a panel of judges of the COURT OF APPEAL FOR SASKATCHEWAN.
specifically Justice Peter A. Whitmore, Justice Robert W. Leurer, and Justice
JEROME A. THOLL (the “2nd Panel). The 2nd Panel, sitting with the powers of the
Court, officially endorsed the orders of JUSTICE J.D. KALMAKOFF thereby
participating in his orders making the COURT OF APPEAL FOR SASKATCHEWAN party
to his crimes and party to the mortgage fraud. The 2nd Panel was told about the
mortgage fraud and how JUSTICE J.D. KALMAKOFF shielded counsel from the same
and acted as a lawyer on their behalf producing a brief of law in place of orders.
With the addition of these three, all eleven justices of the court of last resort in
SASKATCHEWAN, are implicated in the foregoing crimes.

31

ARGUMENT
The foregoing statement of facts and the appendices to this application
present evidence of officials in both the CANADIAN and UNITED STATES governments
working to deprive the people of the UNITED STATES OF AMERICA of Christian Rights
and Freedoms, among them the free exercise of Religion and the unalienable rights
to Life, Liberty, and pursuit of Happiness, which is a matter of “imperative public
importance”. The same evidence resulted in the Petitioner discovering acts of
federal treason and terrorism by government officials and the invariable pursuit of
the OBJECT in both countries.
A.

This Court Should Grant Certiorari to Affirm the Mismanagement of the
Covid Emergency to Dissolve the Social Order so as to Build a World Without
Freedom: Solve et Coagula, as the Masonic Adage Teaches, which is
Articulated by Jesuit Affiliated Carlo Maria Vigand
The criminally negligent engineering control guidelines in SASKATCHEWAN in

the country of CANADA with respect to the mismanagement of the Covid emergency
which Dale presented to the CANADIAN government and was tortured for
presenting and for which his daughter the Petitioner was tortured for presenting to
the United States government, warrant an investigation into the engineering and
other recommendations within the UNITED STATES with respect to the Covid
emergency. The subsequent detainment of the Petitioner and his daughter KAYSHA
without cause and refusal of court officials to follow due process of law to cover up
the same warrant an investigation into the activities of the ATTORNEY GENERAL OF
the

United States, the US District Court, the US Court

32

of Appeals,

and the

Supreme Court of the United States, and the United States House

of

Representatives as many of their agents have been complicit in these crimes.
B.

This Court Should Grant Certiorari to Affirm that Agents of the United
States Government have Participated in the Persecution of the Christians,
Catholics, and the Indigenous Peoples for the Mismanagement of the Covid
Emergency
The Attorney General of the United States physically detained the

Petitioner when attempting to enter the country as a essential service worker and
upon refusal claiming asylum from torture and the US DISTRICT COURT suspended
the Privilege of Writ of Habeas Corpus for such detainment which resulted in the
concealment of the mismanagement of the Covid emergency in CANADA and the
United States

of

America; the suspension of the Privilege of Writ ofHabeas

, Corpus for any reason or any means not permitted by the United States
Constitution as a part of a conspiracy to cover up the mismanagement of the Covid
emergency is an act of federal treason and the invariable pursuit of the OBJECT. The
Petitioner was punished for acting in accordance with the Declaration of
Independence. The Petitioner since entering the UNITED STATES from by the agents
of Homeland Security by way of the border guard including without limitation
hindering the Petitioner from delivering documents to a judge of the United States
with information relating to the commission of a federal offence thereby giving aid
and comfort to the enemies of the UNITED STATES, ICE officers including without
limitation Garcia punishing the Petitioner for exercising his article 13 rights under
the UN Torture Convention, and agents of the AURORA ICE PROCESSING CENTER.

33

The Covid emergency measures have been used to suppress the Christian Rights
and Freedoms, among them the free exercise of Religion and the unalienable rights
to Life, Liberty, and pursuit of Happiness. Churches are being forcibly closed,
INDIGENOUS Peoples are being forcibly transferred, and people are being tortured
by the threat or actual realization of forced medical treatment by Covid testing and
vaccination in addition to other forms of treatment. The people of the UNITED
States have been refused the right to “Petitioned for Redress in the most humble
terms” as “repeated Petitions have been answered only by repeated injury”.

CONCLUSION
For the reasons stated in this application, the Petitioner respectfully petition
for a writ of certiorari to review the pending case for writ of mandamus in the US
COURT OF Appeals pursuant to Rule 11 of the Rules of this Court and 28 U.S.C. §
1254 and § 2101(e) given the “imperative public importance” of the evidence federal
treason and the invariable pursuit of the OBJECT, a conspiracy to restrict the liberty
of the Christians, Catholics, and Indigenous Peoples in the United States of
AMERICA; the same have had their rights and freedoms, specifically the Privilege of
Writ ofHabeas Corpus, the free exercise of Religion, and the unalienable rights to
Life, Liberty, and pursuit of Happiness, taken by the MASONIC conspirators through
the mismanagement of the Covid emergency, as predicted by the JESUIT affiliated
CARLO Maria VlGANO, Titular Archbishop of Ulpiana, when he alleged that such
mismanagement has furthered the dissolution of the social order so as to build a
world without freedom: Solve et Coagula, as the MASONIC adage teaches.

34

June 23rd, 2021

Respectfully submitted,
Dale J. Richardson
3130 Oakland Street,
Aurora, CO 80010
(306) 441-7010
unity@dsrkarisconsulting.com

Dale J. Richardson

35

